RULE 33.1(h) CERTIFICATE OF COMPLIANCE
No. 20-440
Minerva Surgical, Inc.,
Petitioner,
v.
Hologic, Inc., Cytyc Surgical Products, LLC,
Respondents.
As required by Supreme Court Rule 33.1(h), I, Robert N. Hochman, certify
that the Reply in Support of Petition for a Writ of Certiorari in the foregoing case
contains 2,981 words, excluding the parts of the document that are exempted by
Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on November 24, 2020.
/s/ Robert N. Hochman
ROBERT N. HOCHMAN
SIDLEY AUSTIN LLP
One South Dearborn
Chicago, IL 60603
(312) 853-7000

